HHS/OIG, Audit -"Review of Title IV-E Training Costs in New Hampshire for the Period
July 2000 Through June 2003,"(A-01-05-02500)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Title IV-E Training Costs in New Hampshire for the
Period July 2000 Through June 2003," (A-01-05-02500)
January 25, 2006
Complete Text of Report is available in PDF format (2.4 mb).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether New Hampshires Department of Health and Human Services
(the State agency) complied with Office of Management and Budget (OMB) Circular A-87 and
ACF guidance in claiming Federal reimbursement for the costs of foster care and adoption
assistance training.  The State agency did not fully comply with guidance in claiming
costs for reimbursement.  Specifically, the State agency did not allocate training costs
between Federal and State programs.  As a result, the State agency overstated Federal
claims for training costs during State fiscal years 2001 through 2003 by $1.76 million (Federal
share).  We recommended that the State agency make a financial adjustment of $1.76 million
on its next Federal Quarterly Report of Expenditures and ensure that it follows OMB Circular
A-87 and ACFs policy for allocating training costs.  The State agency disagreed with
our recommendations.